         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
The Department of Energy's
American Recovery and
Reinvestment Act – Tennessee
State Energy Program




OAS-RA-L-12-04                       April 2012
                                 Department of Energy
                                    Washington, DC 20585
                                         April 30, 2012


MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY EFFICIENCY AND
               RENEWABLE ENERGY


                         Daniel M. Weeber, Director
                         Eastern Audits Division
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's
                         American Recovery and Reinvestment Act – Tennessee State Energy
                         Program"

BACKGROUND

The Department of Energy's Office of Energy Efficiency and Renewable Energy (EERE)
provided grants to states, territories, and the District of Columbia (states) through the State
Energy Program (SEP). The American Recovery and Reinvestment Act of 2009 increased the
SEP by $3.1 billion using the existing grant formula. Grant awards to states were designed to
achieve a number of Recovery Act objectives including preserving and creating jobs, saving
energy, increasing renewable energy sources, and reducing greenhouse gas emissions. EERE
program guidance held each state responsible for administering the SEP and for implementing
sound internal controls over the use of Recovery Act funds.

The State of Tennessee's Department of Economic and Community Development (Tennessee)
received $62.5 million of Recovery Act SEP grant funds. This was a significant increase from
the $467,000 received prior to the Recovery Act. Tennessee planned to use these funds as part
of a broader strategy to stimulate short term economic activity and growth. To implement the
SEP grant, Tennessee awarded two contracts to the University of Tennessee (University). The
first contract, for $31 million, was for developing the 5 megawatt West Tennessee Solar Farm
(Solar Farm). The second contract, for $29.3 million, was for establishing the Tennessee Solar
Institute (Solar Institute) at the University to spur growth in the State's solar industry by
awarding installation and innovation grants to State companies and conducting various training
activities. The University in turn awarded the University of Tennessee Research Foundation
(Research Foundation), an independent not-for-profit public benefit corporation, two separate
contracts to construct the Solar Farm and operate the Solar Institute. Tennessee planned to retain
$2.2 million of SEP grant funding for its oversight activities. The SEP grant to Tennessee and
the contracts with the University and Research Foundation were set to expire on April 30, 2012.

As part of the Office of Inspector General's strategy for reviewing the Department's
implementation of the Recovery Act, we initiated this review to determine if Tennessee was
using its funds in accordance with Federal requirements and the SEP grant.
CONCLUSIONS AND OBSERVATIONS

Overall, Tennessee had developed processes and controls to manage its SEP Recovery Act grant.
However, we determined that, contrary to Federal requirements, Tennessee provided funds to the
University in excess of what was immediately needed to pay for actual expenses. In December
2011, the University and Research Foundation had about $18.3 million of unexpended grant
funds in their possession. Further, the University and Research Foundation had earned over
$650,000 in interest on these funds and had not remitted any of the interest to the Government.
Our review also noted that a substantial amount of funds provided for Solar Institute initiatives
had not been spent, calling into question whether the funds can be expended before expiration of
the grant.

                      Payments to the University and Research Foundation

We found that the University and Research Foundation had accumulated funds beyond what was
immediately needed. In December 2011, Tennessee reported paying out about $57.7 million
under its two contracts with the University. However, the University and Research Foundation
had actually only spent about 69 percent of the funds. The University and Research Foundation
had accumulated over $18 million not immediately needed to make payments for goods, services
and salaries. Federal regulations require that advances be limited to the amounts needed for
actual, immediate cash requirements and that the timing and amount of advances be close to
actual disbursements. The regulations further state that sub-recipients are to minimize the
elapsed time between transfer of funds and disbursements. Department SEP guidelines also state
that contracts for SEP work should be tailored, as needed, and that funds are to be disbursed only
when sub-recipients have demonstrated a need for reimbursement.

These excess funds accumulated because of the billing and payment terms negotiated in the
contracts between Tennessee and the University, and between the University and Research
Foundation. For example, the Solar Institute contracts allowed the University and Research
Foundation to bill for deliverables according to a pricing schedule. However, these deliverables
had no clear relationship to the actual cost of performing the work. For instance, the schedules
in both contracts contained four billing milestones of $3.63 million each for approving solar
innovation grant merit reviews and four billing milestones of $2.25 million each for obligating
funds to solar installation grants. These eight milestones alone allowed Tennessee to be billed
$23.5 million, regardless of the costs actually incurred for obtaining merit reviews or obligating
funds to grants. The State's Solar Farm contract contained even less restrictive payment terms.
Tennessee was required to transfer 50 percent of the estimated cost of developing the Solar Farm
to the University after project cost estimates were approved by the State Building Commission.
Further, the contract required Tennessee to release the remaining funds prior to the first 50
percent being exhausted.

According to Tennessee, the Department was provided weekly updates on the development and
implementation of these contracts. Additionally, Tennessee stated the Department actively
encouraged the development of contracts using a milestone payment process and could not recall
any concerns being raised about contract payment terms, payment methodologies or project
milestones that were ultimately finalized. The Departmental contract specialist involved with the
Tennessee SEP grant did not recall reviewing or accepting Tennessee's contracts with the
                                                2
University. While agreeing that states had been encouraged to expend funds quickly, the
contract specialist said that Tennessee was still expected to be familiar with grant regulations
governing the draw down of funds and interest earned.

                                     Interest Earned on Funds

We also noted that through December 2011, the University and Research Foundation earned
$652,104.03 in interest on the unexpended funds in their possession. Specifically, $345,582.29
was earned on unexpended funds related to the Solar Institute and another $309,521.74 was
earned on funds from the Solar Farm. Federal regulation 10 CFR 600.124, Program Income,
Subpart B – Uniform Administrative Requirements for Grants and Cooperative Agreements with
Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations, states that
income earned by a recipient can generally be retained and used for eligible project objectives;
but, it also notes that interest earned on advances of Department funds is not program income.
Furthermore, 10 CFR 600.221(i), Interest Earned on Advances, Subpart C – Uniform
Administrative Requirements for Grants and Cooperative Agreements to State and Local
Governments, states that interest earned on grant funds should be remitted to the Federal
government on a quarterly basis.

In April 2011, we notified the Department of our concern regarding the amount of SEP grant
funds in the University and Research Foundation's possession and also expressed concerns about
interest earnings. The Department's contracting officer subsequently notified Tennessee on
June 9, 2011, that the Solar Farm and Solar Institute contracts are considered as sub-recipients
based on 10 CFR 600.101, Definitions, Subpart B. The contracting officer reminded Tennessee
that sub-recipients are to minimize the time elapsing between the transfer of funds and
disbursement. Any Federal funds in excess of immediate disbursement needs should be
promptly refunded. The project officer's June 13, 2011, on-site grant monitoring report also
noted that no interest payments had been returned to the U.S. Department of Treasury (Treasury)
and the contracting officer was working with general counsel to resolve the issue.

In responding to the Department in June 2011, Tennessee and University officials stated they
believed that they were in compliance with Federal requirements. The officials also stated that
they strove to be good stewards of all monies received and would comply with Department
guidance on how to handle the interest earned. In December 2011, the Department's contracting
officer issued a final determination regarding interest earned on SEP grant funds, stating that any
interest earned in excess of $250 must be returned to the Department. Further, the contracting
officer reminded Tennessee that it was required to minimize the time between the transfer of
funds and disbursement. On January 25, 2012, the University remitted 3 separate checks totaling
$652,104.03 to the Department for interest earned by the University and Research Foundation on
the unspent funds in the Solar Farm and Solar Institute accounts.

                                        SEP Grant Progress

In addition to the above issues, we noted that the University and Research Foundation may have
difficulty spending all Recovery Act funds allocated to the Solar Institute prior to contracts
expiring on April 30, 2012. In December 2011, the Solar Institute reported awarding 152 solar
installation grants to businesses for purchasing small scale solar power systems and 82 solar
innovation grants to provide qualified businesses with funds for a range of activities, including
                                                 3
facility improvements, work force development, process improvements and technical assistance.
Although 105 of 152 installation grants had been completed, only 7 of 82 innovation grants were
complete as of December 7, 2011. Overall, about $12.9 million of the $29.3 million (44 percent)
allocated remained unspent as of December 8, 2011. In January 2012, Tennessee requested that
the Department extend the SEP grant through September 2013. The Department approved
Tennessee's request in February 2012.

PATH FORWARD

We believe that the contracting officer's recovery of interest earned and direction to minimize the
amount of time between the transfer of funds and disbursement is reasonable and addresses the
issues we identified. However, to help ensure that Recovery Act goals are met, we suggest that
the Department closely monitor the progress of Tennessee's grant and ensure that all Recovery
Act funds are properly expended or returned to the Department/Treasury, as appropriate.

No formal recommendations are being made in this report; therefore, a response is not required.
We appreciate the cooperation of your staff during our audit.

Attachment

cc: Deputy Secretary
    Associate Deputy Secretary
    Acting Under Secretary of Energy
    Chief of Staff




                                                4
                                                                                      Attachment


                       OBJECTIVE, SCOPE AND METHODOLOGY


OBJECTIVE

The objective of this audit was to determine if the State of Tennessee's Department of Economic
and Community Development was using its funds in accordance with Federal requirements and
the State Energy Program (SEP) grant.

SCOPE

The audit was performed from March 2011 through April 2012. The scope of the audit was
limited to the State of Tennessee's American Recovery and Reinvestment Act (Recovery Act)
funded SEP grant. We conducted work at the Department of Economic and Community
Development (Tennessee) in Nashville, TN; and, the University of Tennessee (University) and
the University of Tennessee Research Foundation (Research Foundation) in Knoxville, TN.

METHODOLOGY

To accomplish the audit objective, we:

        Reviewed Federal regulations and Department of Energy (Department) guidance related
        to the SEP and the Recovery Act;

        Reviewed the terms of the Tennessee SEP grant;

        Reviewed the contracts between Tennessee and the University, and between the
        University and its Research Foundation; and,

        Analyzed invoices, grants and status reports for activities funded by the Tennessee SEP
        grant.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. Accordingly, the audit included test
of controls and compliance with laws and regulations to the extent necessary to satisfy the
objective. In particular, we assessed the implementation of the GPRA Modernization Act of 2010
as it relates to the audit objective and found that the Department had established performance
measures related to the SEP. Because our review was limited, it would not necessarily have
disclosed all internal control deficiencies that may have existed at the time of our audit. We did
not rely on computer-processed data to accomplish the audit objective.

We held an exit conference with Department officials on April 3, 2012.



                                                5
                                                                IG Report No. OAS-RA-L-12-04

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

    1. What additional background information about the selection, scheduling, scope, or
       procedures of the audit or inspection would have been helpful to the reader in
       understanding this report?

    2. What additional information related to findings and recommendations could have been
       included in the report to assist management in implementing corrective actions?

    3. What format, stylistic, or organizational changes might have made this report's overall
       message more clear to the reader?

    4. What additional actions could the Office of Inspector General have taken on the issues
       discussed in this report which would have been helpful?

    5. Please include your name and telephone number so that we may contact you should we
       have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
